Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Implementation    of State Child Support
        Certified Data Systems




                    JUNE GIBBS BROWN
                    Inspector   General

                        APRIL4 1997
                       OEI-O4-%OOOlO
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-
452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.


                        Office of Evaluationand Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the
Office of Inspector General. It conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The inspection reports provide findings and
recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI’s Atlanta Regional Office prepared this report under the direction of Jesse J.
Flowers, Regional Inspector General, and Christopher Koehler, Deputy Regional
Inspector General. Principal OEI staff included:

REGION                                               HEADQUARTERS

Peggy Daniel, Project Leader                         Alan Levine, Program Specialist
Ron Kalil, Team Leader                               Wm. Mark Krushat, Sc.D.
Jackie Watkins, Program Analyst                      Ann O’Connor, Program Specialist
Tammy Hipple, Program Analyst




To obtain a copy of this report, call the Atlanta Regional Office at 404-331-5748.
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Implementation    of State Child Support
        Certified Data Systems




                    JUNE GIBBS BROWN
                    Inspector General

                        APRIL 1997
                       OEI-04-96-00010
              EXECUTIVE                        SUMMARY

PURPOSE

To describe State IV-D Child Support Enforcement     Agencies’ experiences in
implementing certified automated data systems.

BACKGROUND

The Child Support Enforcement program was established in 1975 as Title IV-D of the
Social Security Act. Its purpose is to locate noncustodial parents, establish paternity,
establish and enforce child support, and collect child support payments. State Title
IV-D Child Support Agencies manage and operate child support programs.

Because of escalating non-support for children by noncustodial parents, and a public
need for responsive child support enforcement programs, the Administration and the
Congress have long been interested in improving data systems for child support. As a
result of this interest, the 1988 Family Support Act required each State to develop a
Statewide automated data system that had the capability to control, account for, and
monitor all processes for determining paternity and collecting child support.

The 1988 Act also set October 1, 1995 as the deadline for States to implement the
required certified automated child support data system. However, only one State met
the October 1, 1995 deadline for implementing a certified automated data system for
child support enforcement. As a result, on October 11, 1995, Congress passed
legislation to authorize a 2-year extension of the deadline -- until October 1, 1997.

Federal and State expenditures for developing automated     child support systems
totalled about $2 billion.

FINDINGS

Mmt States and territories are well positioned to have cert$ed automated child supprt
data systkms by the rev&d October 1,1997 &adlim

Only one State met the original October 1, 1995 deadline for having a certified data
system. However, at the time of our review five more States had been certified.
Forty-two States said they expect to have certified automated data systems by the
revised October 1, 1997 deadline. Five States did not know whether or not they would
be certified, and one State said it does not expect to develop a certified data system by
the revised deadline. Of those anticipating to be certified by the revised deadline,
thirty-two were in the implementation and operational phases.
States, ACF, and conaactors general& attributed implementation delays huge& to three
pqgmm ekkments: technology b-arqfer, short timefmmes; and Stai2/contractor
iz?htionsw

States, ACF, and contractors shared responsibility for the delays. Neither was solely
responsible. States identified three program elements that contributed most to delays
in developing and implementing certified automated data systems. The program
elements were (1) a requirement to share technology, (2) short timeframe for
developing and implementing the systems, and (3) ineffective State and contractor
working relationships. ACF and contractors generally agreed with States that these
program elements were the major causes of delays.

Most States cosider the qualityof Federal technical assistance and guidance to be good
to excelknt

About 70 percent of the States said the quality of ACF’s technical assistance and
guidance was good or excellent. ACF provided various types of technical assistance
and guidance to States at different stages during planning and development of certified
data systems. States said on-site reviews, certification guide and questionnaire,
interpretation of the certification guide, and user group meetings were most helpful.

RECOMMENDATIONS

Despite the favorable outlook, the Administration for Children and Families (ACF)
should take steps to ensure that all States develop a certified automated child support
data system by the revised October 1, 1997 deadline. We recommend that ACF:

   b   Secure a detailed action plan from each State identifying specific steps they are
       undertaking to meet the revised deadline.

   w   Establish an intensive system to continuously monitor the status of each State’s
       progress towards becoming certified by October 1, 1997.

   b   Provide more indepth technical assistance and guidance to States having
       difficulty meeting the revised deadline. Such assistance could include (1)
       working with States to determine specific causes of problems, and (2) assisting
       States in designing and implementing corrective action measures.

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996
requires States to develop several additional child support data systems by October 1,
2OMI. Some lessons learned from the systems development effort analyzed in this
report may be applicable to these new systems. We suggest that ACF:

   k   Allow States flexibility in determining whether or not transferring proven child
       support data systems from one political jurisdiction to another would shorten
       implementation time, reduce systems cost, and achieve standardized systems.


                                            ii
  b    Develop strategies to identify areas where States can provide technical
       assistance to others. ACF should also coordinate this effort both regionally and
       nationally.

Towards this effort, we will issue a report in the near future that identifies lessons
learned by States in their efforts to develop and implement certified automated data
systems.

AGENCY COMMENTS

The Principal Deputy Assistant Secretary for Children and Families commented on
our draft report. She expressed general agreement with our recommendations.          To
help assure that States implement certified automated data systems by the revised
October 1, 1997 deadline, ACF is re-emphasizing the importance of Advance Planning
Document Updates by States. The ACF will also provide more in-depth technical
assistance to States, including more frequent on-site visits by regional and central
office staffs. ACF intends to obtain Quarterly Status Reports from States experiencing
difficulties in developing certified data systems.

Further, ACF modified original instructions requiring States to transfer another States’
child support data system. The revised instructions give States an option on whether
or not to transfer another States’ data system. The ACF is also seeking opportunities
to build supportive relationships between States to enhance development of the data
systems.

The Acting Assistant Secretary for Planning and Evaluation also concurred with our
recommendations.

Appendix A shows the full text of ACF comments.




                                            ...
                                            111
                        TABLE                      OF             CONTENTS

                                                                                                                            PAGE




INTRODUCI-ION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

             State Readiness        ............................................                                               5

             Causes of Implementation                Delays ..................                             r ............      6

                    Technology Transfer Policy ...............................                                                 8
                    Short Timeframes ......................................                                                    9
                    State and Contractor Working Relationships                 .................                              10

   .         Quality of Federal Technical Assistance                           .........................                      11


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


AGENCYCOMMENTS                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDIX A: ACF COMMENTS.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-l
                         INTRODUCTION

PURPOSE

To describe State IV-D Child Support Enforcement     Agencies’ experiences in
implementing certified automated data systems.

BACKGROUND

ChiiiiSupportEnforcement

The Child Support Enforcement program was established in 1975 as Title IV-D of the
Social Security Act. Its purpose is to locate noncustodial parents, establish paternity,
establish and enforce child support, and collect child support payments. State Title
IV-D Child Support Agencies manage and operate child support programs.

Within the Department of Health and Human Services (HHS), the Office of Child
Support Enforcement (OCSE), Administration for Children and Families (ACF), has
Federal oversight responsibility for State Title IV-D Child Support programs.

AutomatingChild SupportData Systems

Because of escalating non-support for children by noncustodial parents, and a public
need for responsive child support enforcement programs, the Administration and the
Congress have long been interested in improving data systems for child support.

In 1984, Congress amended Title IV-D of the Social Security Act to fund 90 percent
of State costs for computer hardware and software to operate automated child support
data systems.

The 1988 Family Support Act extended 90 percent funding for development of
automated child support enforcement data systems. The Act required each State to
develop a Statewide automated data system that had the capability to control, account
for, and monitor all processes for determining paternity and collecting child support.
Additionally, the system was required to electronically interface with systems of other
agencies at the Federal, State, and local level. Such interface was deemed essential to
assure collection of child support, where appropriate, and proper distribution of child
support payments.

The 1988 Act also required ACF to certify each State system to assure that State
automated systems for child support meet Federal requirements.

Finally, the 1988 Act set October 1, 1995 as the deadline for States to implement the
required certified automated child support data system. At that time, funding was to
be discontinued.


                                            1
However, only one State met the October 1, 1995 deadline for implementing a
certified automated data system for child support enforcement. As a result, on
October 11, 1995, Congress passed legislation to authorize a 2-year extension of the
deadline -- until October 1, 1997.

Fe&ml and StateExpedhrm

While only one State system had been certified as of the October 1, 1995 deadline,
Federal and State expenditures for developing State systems totalled almost $2 billion.
Figure 1 shows that Federal and State funding for developing automated child support
systems steadily increased from 1988 through 1995.


                                           FIGURE        1

            CHILD         SUPPORT      SYSTEMS                  EXPENDITURES
                                     FY 19884995

                 TOTAL:    FEDERAL/STATE                 SHARE         ($   millions)
      700    -

                                                                                  590.1
      600    -


      500    -


      400    -




                  1988    1989   1990       1991       1992    1993     1994     1996

                                        FISCAL          YEAR

                                 m      Federal         EZi    State




                                                   2
tincem about Statelbgrm       in DevelopingAutmnati Child SupportData Systems

Congress and the Administration for Children and Families, Department of Health
and Human SeM’ces expressed interest in learning about the status of implementation
of automated child support data systems, delays in implementation, problems,
successes, and lessons learned. Such information should be helpful to OCSE, the
Department, and the Congress in continuing to develop an automated data system for
child support, and in designing and implementing such systems in the future.

Previously, the U.S. General Accounting Office (GAO) had issued two reports on
Federal and State efforts to automate data systems. In 1989, the GAO reported on
the automation status of State Child Support Enforcement programs.’ That report
showed that between September 1985 and May 1988, States had made some progress
toward developing automated child support systems. Thirty-nine States had
progressed through at least one development stage, 13 States had remained in the
same phase, and 2 States had regressed to a preplanning phase.

In 1992, the GAO reported on OCSE’s oversight of States in developing the required
automated child support systems. 2 GAO reported that OCSE did not require States
to correct known problems. The GAO noted that OCSE’s approach resulted in a risk
that serious problems would have to be corrected later when it is much more costly
and time-consuming to do so.

PkimnedAdditionalChild Supper Enfon;ementData Systems

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996
required States to develop several additional child support data systems. For example,
(1) State directory of new hires, (2) State case registry, (3) collection and use of Social
Security numbers in child support enforcement, and (4) centralized collection and
disbursement of support payments. The deadline set for implementation of the new
systems is October 1, 2000. However, the deadline shall be extended by one day for
each day (if any) that the Secretary fails to meet the set deadline for prescribing final
regulations. In developing the additional new systems, States are expected to face
similar challenges as they faced in developing the certified data systems.

We believe this report on implementation of State child support certified data systems
will provide important information for planning and implementing the additional child
support data systems. Additionally, we will issue a follow-up report on this subject of
lessons learned by States in implementing the certified data systems.



       ‘Child Support: State Progress in Developing Automated Enforcement Systems
 (GAO/HRD-89-lOI%, February 10, 1989).

        2Child Support Enforcement: Timelv Action Needed to Correct System Development
 Problems (GAO/IMTEC-92-46, August 13, 1992).


                                              3
METHODOLOGY

We used a standardized questionnaire to survey all 50 States, the District of Columbia,
Puerto Rico, Guam, and the Virgin Islands. Additionally, we conducted telephone
interviews with staff at ACF headquarters and 10 regional offices. Finally, we
conducted telephone interviews with eight judgmentally selected State contractors who
were responsible for developing the required automated data systems.

We used the following criteria in selecting the eight contractors. First, we stratified
the States into the following two groups. States that were (1) certified, including those
States that had obtained a Level 2 certification review by ACF, and (2) not certified.
We selected four contractors from each of the two groups.

From each organization included in our survey, we obtained information on
experiences and lessons learned in developing automated data systems for child
support enforcement. Further, we obtained views of staffs on reasons for delays in
developing certified automated data systems. Additionally, from ACF staffs, we
obtained information on the status of development of certified data systems. We did
not determine the extent that funding affected State delays in developing and
implementing certified data systems. The U.S. General Accounting Office has a
review underway which we understand will examine the effect of funding on system
implementation.

As of August 30, 1996, 54 States3 had completed and returned our questionnaire        -- a
response rate of 100 percent.

We conducted our inspection between April 1996 and August 1996.



This inspection was conducted in accordance with Quality Stundardr for Inspections
issued by the President’s Council on Integrity and Efficiency.




      3For convenience in summarizing survey results, we considered the District of
Columbia, Puerto Rico, Guam, and the Virgin Islands as States.
                                       FINDINGS

MOST STATES ANTICIPATE HAVING A CERTIFIED AUTOMATED CHILD
SUPPORT DATA SYSTEM BY THE REVISED OCTOBER 1,1997DEADLINE

srirstateshadcertjciedDatasysterns

As of October 1, 1995, only one State had a certified automated child support system
as required by the 1988 Family Support Act. However, at the time of our review, five
more States had developed certified automated data systems for child support -- for a
total of six States.

Forty-twoof theRemaining48 StatesBpect to Meet the Rev&d Deadlineof October 1,
1497

The majority of the remaining 48 States (88 percent), said they expect to have
certified data systems by the revised deadline. Table 1 shows the status of all States in
developing and implementing certified automated child support data systems at the
time of our review. The table also shows that two-thirds of the remaining 48 States
(32 of 48) are in the implementation and operational phases.

                                      TABLE 1
               STATE PROGRESS IN DEVELOPING AUTOMATED DATA SYSTEMS
                  CURREWTPHASE                           NUMBER OF STATES IN PHASE

 Design                                                        2

 Programming                                                   3

 Testing                                                       9

 Conversion                                                    2

 Implementation                                                9
 Pilot in several counties, but enhancing                         1
 Operational   Statewide, but enhancing                       12

 Operational   Statewide, but transferring new                    1
 system

 Level 1 Certification   Review                                2

 Level 2 Certification   Review                                7

 Certified                                                     6

             TOTAL STATES                            I
                                                              54

 .Tlx..48 .States,that.did.act have certified.datasystemsat, tire.time.of.our reviewwere ,in one ,or more
  phases of development or implementation: For the States that selected more than one phase, we
 chose the last phase checked to be’ the State’s cnrrent phase.


                                                    5
Five oftheRemaining48 StatesDid Not K&w whetheror Not lhcy Would Meet the
RevivedDeadlineof October I, 1997

Officials from the five States gave several reasons for uncertainty about meeting the
revised October 1, 1997 deadline. Some of the more prevalent reasons were (1) the
system has to be implemented in a number of counties, (2) ACF’s certification guide
was published too late, (3) contractor’s plan was flawed, and, based on past
performance, the State has no confidence in the contractor’s projections, and (4) State
management is insisting that appropriate time be taken to develop a quality system.
We observed that the six States who already have certified systems and the 42 who
expect to have such systems by October 1, 1997 faced similar challenges.

One StateDoa Not Expect to Meet the RevivedDead&e of October I, 1997

This one State does not expect to develop a certified automated data system by the
revised deadline because of procurement and contractor problems. That State said
they may have a certified system by October 1998. Again, 6 States have successfully
overcome such barriers and 42 others expect to do so.


STATES, ACF, AND cXXUTRACl-‘ORS GE NERALLYA’ITRIBUTED
IMPLEMENTATION    DELAYS LARGELY TO THREE PROGRAM                        ELEMENTS

Our survey results show that neither the States, ACF, nor contractors were solely
responsible for implementation delays, but each organization shared in the delays.
States, ACF and contractors identified various program elements that contributed to
the delays. Table 2 shows factors States said caused delays in developing and
implementing certified data systems.

However, States identified three program elements that contributed most to delays in
developing and implementing certified automated data systems for child support. The
program elements were (1) ACF’s transfer policy, (2) short timeframe for developing
and implementing the systems, and (3) ineffective State and contractor working
relationships. These are the top five factors identified in Table 2.




                                           6
                                 TABLE 2
        FAcXXlS CAUSING DELAYS IN DEVELOPING AND IMP-G
               STATE CHILD SUPPORT CERTIFIED DATA SYSTEMS
[r             FACIXNIS CAUSING DELAYS                              PERCENT
                                                                                      1
                                                               II
 1. ACF’s prior mandate that States ‘transfer’ a CSE                70% (38 of 54)
    system                                                                            I

 2. Not enough time allowed by the October 1, 1995
    deadline for developing and implementing your State’s
    certified data system
 3. Contractor meeting “deliverables” schedule stipulated in
    contract
                                                                   I*55% (27 of 49)


 4. Qualitv of contractor’s work
                                                                   ------A
                                                                    *49% (24 of 49)
                                                                                      I
 5. Problems with State contractor                                  *43% (21 of 49)
                                                                                      I
 6. State administrative problems
 7. Resources assigned to other competing child support
    priorities
 5. State staff technical expertise to develop and implement
    data system
 9. Guidance provided bv ACF to State
 10. Guidance/direction     provided by State to contractor
 11. Technical assistance provided by ACF to State
 12. State monitoring of contractor’s progress                      *17% (8 of 49)
                                                                                      I
 13. State leadership and commitment
 14. State planning process
 15. State-established    contract requirements                     *13% (6 of 49)
                                                                                      I
 16. State legislation                                               12% (6 of 54)
                                                                                      I
 17. Organizational location of child support data system in         8%   (4 of 54)
    relation to State IV-D program office
 18. Monitoring by ACF
 y 5 of.54 States did ntit use contractors, thereby reducing the
 to ‘49.




                                                   7
Attempts to lhzn.$wAutomated Data Systemsfrom One State to Another Did Not Wok

In 1986, OCSE established a transfer policy generally requiring States seeking
enhanced funding to use existing automated data systems of other States as models
rather than develop new systems. The OCSE expected such transfers to (1) save
system development time and costs, and (2) increase the likelihood of success,
especially in States lacking technical staff.

However, about 71 percent of the States said the attempt to transfer an automated
data system delayed, rather than enhanced, development and implementation of
automated systems. For example, several State officials said attempts to use a transfer
system delayed implementation by several years.

According to the States, the transfer requirement delayed development     and
implementation of certified data systems for two major reasons.

  b    No Complete Systems to Transfer:      When States began developing data
       systems, there were no certified systems to transfer as models. None of the
       States had complete, mature automated IV-D child support systems that could
       be certified according to the requirements of the 1988 Family Support Act.

  b    Transfer Systems Not Unique To State Needs:        The systems States finally chose
       as a transfer model had to be redesigned, rewritten, modified and enhanced to
       meet individual State needs. One State official said the transfer concept was
       fundamentally flawed. It called for the transfer of poorly designed systems and
       old technology that had to be significantly enhanced to function for individual
       States. State officials said that redesigning, rewriting, and enhancing the flawed
       transfer systems resulted in much lost time.

       According to many States, the existing State systems they tried to transfer did
       not meet the diverse needs of individual States and counties. The States said
       the transfer concept seemed to be based on a premise that one child support
       program is like another. They said, however, that in reality each child support
       program is unique, and trying to adopt another system wasted time and
       resources. For example, officials in one State said they wasted about a year
       trying to adopt a transfer system. The final result was a documentation of
       deficiencies in the transfer system that were eventually used to justify not using
       the system.

       A few States said the transfer systems did not permit the degree of
       customization desired by individual States. For example, officials in one State
       noted that the transfer system could not satisfy over 182 elected officials
       involved in child support at the State and county level. The requirements of
       county-administered child support systems create additional difficulties for some
       States. Some States said the transfer system requirement forced them to
       choose a system they otherwise would not have chosen.


                                            8
ACF and contractor staffs generally corroborated State opinions that the transfer
policy was a major contributor of the delays. Both ACF and contractor staffs said the
transferred system needed significant modifications.

October I, I995 Deadkhedid not Allow Adequate lhe for Developingand
ImplementingStateCertifiedData *stems

Seventy percent of the States said the October 1, 1995 deadline, set by the Congress,
was unrealistic for developing and implementing certified data systems. According to
State officials, the time was unrealistic because (1) final system requirements from
ACF were late, (2) political issues could not be resolved in time allowed, and (3)
complex State systems could not be developed in time allowed.

  b    System Requirements Issued Late: State child support officials said ACF
       issued final certification requirements and guidelines in June 1993. This was
       too late, they said, to analyze, design, redesign, develop, and implement systems
       to meet the October 1, 1995 deadline. Several State officials explained that
       they started developing systems based on 1992 regulations which detailed
       specifications for computer systems. However, the June 1993 regulations
       required significant and extensive changes to the automated systems that States
       had underway.       Other States said they did not know what was required until
       they received the 1993 certification requirements.

  b    Political Issues Could Not Be Resolved In Time: State officials said the
       October 1, 1995 deadline did not consider a need for obtaining political
       consensus among all child support agencies in a State. They explained that
       development of a central child support system must consider the needs and
       desires of many State and local officials, including local agencies, county
       officials, clerks of courts, and court administrators.

      To illustrate, one State official said completion of the implementation phase
      was dependent on total county cooperation. That official said the road from a
      separate, individual county system to an integrated, statewide system took a
      long time, and the deadline did not allow enough time for this task.

  b    Not Enough Time To Develop Broad Scoped and Complex Systems: Many
      States said the scope and complexity of the required certified data systems
      made the deadline unrealistic. To illustrate, one State official said the deadline
      allowed inadequate time to do the extensive testing, and numerous interfaces
      with other databases that were required. Another said the time was inadequate
      for the extensive procurement process. One official said the scope and
      complexity of the systems were underestimated at the Federal, State and local
      levels.




                                           9
         Several State officials said only a few private sector contractors had child
         support and public welfare expertise. They said the child support deadline did
         not include consideration of this limited resource pool. Since only a few
         experienced contractors were available, States said the deadline was unrealistic.

Again, ACF and contractors agreed that October 1, 1995 deadline was a major
contributing factor to the delays. ACF and contractor staff said the deadline was
unrealistic because of the (1) late issuance of Federal regulations and certification
requirements, (2) political issues in States involving a number of different agencies,
and (3) systems were complex and expensive to develop.

I.eche         Stnteand Gmbwtor Wohing Reibionstip

  b      Contractors Could Not Deliver Acceptable Products on Time: Officials from
         55 percent (27 of 49)4 of the States said contractors failed to deliver as
         stipulated in their contract.   To illustrate why contractors failed to deliver,
         several officials furnished the following comments.

         -- The contractors lacked experienced staff, and in some instances, the
            contractors lost experienced staff after obtaining a contract.

         -- The contractors had insufficient staff to accomplish what was agreed to in the
            contract.

         -- The contractor changed management        after the contract was obtained.

         -- The contractor overpromised, underestimated the scope and complexity of
            work, poorly planned, and ultimately failed to deliver as scheduled.

  b      Contractors Experienced Quality Problems: Officials from 49 percent (24 of
         49) of the States attributed contractor delays to poor quality work. To illustrate
         contractors’ poor quality work, several officials said

         --   every deliverable was always late and subsequently rejected when received.
              Ultimately, deliverables in one State were accepted only conditionally,

         -- contractor has never delivered an acceptable product on schedule,

         --   many of the programs they accepted from the contractors did not work once
              implemented, and

         --   contractor programs could not pass quality test without extensive
              modifications.



         45 of 54 States did not use contractors, thereby, reducing the number of States to 49.


                                                10
  b    Contractors Experienced Various Other Petiormance Problems: Officials from
       43 percent (21 of 49) of the States attributed contractor delays to problems
       other than those mentioned above. For example, several officials said

       -- contractor never fully understood the business of child support enforcement,

       --   contractor failed to undertake needed analysis of State policies, procedures,
            and current systems before starting the project,

       -- contractor was not receptive to input from the State on the system design
          (e.g., system users), and

       -- State spent many months deciding what they wanted from their system,
          but the contractor pushed his own ideas instead of listening to the State.

Likewise, ACF staff said ineffective State and contractor working relationships
contributed to delays. To illustrate, ACF said contractors were not adequately
prepared to deal with certification requirements on the level that States needed. Also,
only a limited number of contractors had expertise in developjng certified data
systems. Contractor staff also said there was not enough available resources to
develop systems, since every State’s system had to be developed by the same deadline.
Contractor staff also said that both State and contractors lost experienced staff which
contributed to delays.

OtherPotentialCausesof Delays

To identify potential causes of delays in implementing certified data systems, we
considered several factors in addition to those named by States, ACF, and contractors.
For example, we considered (1) county vs State administration,     (2) centralized vs
distributed data processing systems, and (3) whether or not States used predominantly
contract staff vs predominantly in-house staff to develop certified data systems. We
found that these factors did not appear to contribute to delays in States meeting the
deadline.


MOST STATES CONSIDERED THE QUALITY OF FEDERAL TECHNICAL
ASSISTANCE AND GUIDANCE TO BE GOOD TO EXCELLENT

While States expressed concern about some guidance such as the transfer policy and
timeliness of final certification requirements, 70 percent of the States said that overall
the quality of ACF’s technical assistance and guidance was good or excellent. ACF
provided various types of technical assistance and guidance to States at different stages
during planning and development of the certified systems. For example, ACF
furnished various publications to States for guidance; held various group meetings,
conferences, and workshops; made on-site reviews, and provided individual



                                              11
consultation. Table 3 summarizes the major types of technical       assistance   and guidance
provided and the number of States receiving the help.

                              TABLE 3
    TECHNICAL ASSISTANCE AND GUIDANCE PROVIDED BY ACF Xl STATES
 TYPESOFTIXHNICALASSISTANCEAND                             NUMBER OF STATES
 GUIDANCE ACF PROVIDED To STATES                           RECEIVINGTECHNICAL
                                                           A!!SISTANCEANDGUlDANCE

 Interpretation    of Certification Guide (Q&A)                    49
 Certification Guide and Questionnaire                             47
 Financial Test Deck                                   I           45
 Visits with Federal Staff                             I           43
 User Group Meetings                                               41
 CSENet Technical Assistance                                       40
 Conferences                                                       31
 ACF Bulletin Board                                                30
 Teleconferences     with Staff                                    28
 On-Site Assistance                                                27
 Workshops                                                         21
 Facilitate Collaborative Efforts and                              21
 Communications between States
 Review of Draft Responses to Questionnaire                        21
 NQJJZ States cuuld check more than one type of technical assistance or guidance.

States said the on-site reviews, certification guide and questionnaire, interpretation     of
the certification guide, and user group meetings were the most helpful.




                                                  12
                   RECOMMENDATIONS

Despite the favorable outlook, the Administration for Children and Families (ACF)
should take steps to ensure that all States develop a certified automated child support
data system by the revised October 1, 1997 deadline. We recommend that ACF:

  b    Secure a detailed action plan from each State identifying specific steps they are
       undertaking to meet the revised deadline.

  b    Establish an intensive system to continuously monitor the status of each State’s
       progress towards becoming certified by October 1, 1997.

  b    Provide more indepth technical assistance and guidance to States having
       difficulty to ensure that appropriate adjustments are made to meet the revised
       deadline. Such assistance could include (1) working with States to determine
       specific causes of problems, and (2) assisting States in designing and
       implementing corrective action measures.

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996
requires States to develop several additional child support data systems by October 1,
2000. Some lessons learned from the systems development effort analyzed in this
report may be applicable to the new systems. We suggest that ACF:

  b    Allow States flexibility in determining whether or not transferring proven child
       support data systems from one political jurisdiction to another would shorten
       implementation time, reduce systems cost, and achieve standardized systems.

  b    Develop strategies to identify areas where States can provide technical
       assistance to others. ACF should also coordinate this effort both regionally and
       nationally.

Towards this effort, we will issue a report in the near future that identifies lessons
learned by States in their efforts to develop and implement certified automated data
systems.




                                           13
                   AGENCY                COMMENTS

The Principal Deputy Assistant Secretary for Children and Families commented on
our draft report. She expressed general agreement with our recommendations.          To
help assure that States implement certified automated data systems by the revised
October 1, 1997 deadline, ACF is re-emphasizing the importance of Advance Planning
Document Updates by States. The ACF will also provide more in-depth technical
assistance to States, including more frequent on-site visits by regional and central
office staffs. ACF intends to obtain Quarterly Status Reports from States experiencing
difficulties in developing certified data systems.

Further, ACF modified original instructions requiring States to transfer another States’
child support data system. The revised instructions give States an option on whether
or not to transfer another States’ data system. The ACF is also seeking opportunities
to build supportive relationships between States to enhance development of the data
systems.

The Acting Assistant Secretary for Planning and Evaluation also concurred with our
recommendations.

Appendix A shows the full text of ACF comments.




                                           14
APPENDIX    A




      A-l
      DEPART-MENT OF HEALTH   & HUMAN       SERVICES

                               #t
                               w        41LcIc         ADMINISTRATION FOR CHILDREN AND FAMILIES~
                                                       rf)ffice uf the Assistant Secretary, Suite600
                               Et!*     -
                                                       370 L’Enfant Promenade, S.W.
                               EE      zz!z            Washington, D.C. 20447
      March 14, 1997           --
                               DWI-MP-

                               -3
                               !Ez
                               Dsmsul!~
TO:         June Gibbs 'Brown
            Inspector General
FROM:       Olivia A. Golden
            Principal Deputy As
              for Children and Families
SUBJECT:    OIG Draft Report Wnplementation of State Child Support
            Certified Data Systems" (OEI-04-96-00010)

Thank you for the opportunity to respond to your draft report of
findings concerning State Child Support Data Systems. Our
comments follow the order of recommendations in the report. If
you have questions regarding this response, please contact David
Ross of my staff at (202) 401-9370.
Comments:
OIG Recommendation I: Secure a detailed'action plan from each
State identifying specific steijsthey are undertaking to meet the
revised deadline.
        ACF Response: We generally agree with the OIC's
        recommendation, and will place a renewed emphasis on the
        States' informational and submission requirements of Annual
        and As-Needed Advance Planning Document Updates.
OIG Recommendation 2: Establish an intensive system to
continuously monitor the status of each State's progress towards
becoming certified by October 1, 1997.
        ACF Response: We generally agree with the OIG's
        recommendation in this area,,and will be offering and
        .conducting additional technical assistance reviews to those
        States in need of these services, as well as to any State
        asking for such services. Further, we intend to employ as
        practicable, the use of Quarterly System Status Reports by
        those States experiencing difficulties with their Child
        Support system development project.
OIG Recommendation 3: Provide more in-depth technical assistance
and guidance to States having difficulty meeting the revised
deadline. Such assistance could include (1) working with States
to determine specific causes of problems, and (2) assisting
States in designing and implementing corrective action measures.

     ACF Response:  We generally agree with the OIG's
     recommendation in this area, and will offer and conduct
     additional technical assistance reviews to those States in
     need of these,services, as well as to any State asking far
     such services. In order to support this need for enhanced
     levels of technical assistance to States, we have offered
     States the opportunity to have more frequent visits by our
     regional and central office staff. A primary purpose of
     these technical assistance visits will be to provide
     guidance to States‘ project staffs in designing and
     implementing corrective action measures, should corrective
     actions ba deemed necessary.
Here are our responses to the OIG recommendations made regarding
States' efforts to implement systems to meet the Personal
Responsibility and Work Opportunity Reconciliation Act of 1996:
GIG Recommendation 1.: Allow States flexibility in determining
whether or not transferring proven child support data systems
from one political jurisdiction to another would shorten
implementation time, reduce systems Cost, and achieve
standardized systems,
     ACF Response:  We agree with this recommendation and have
     modified our original instructions so that States are no
     longer required to transfer systems from another
     jurisdiction. This policy change was issued on July 22,
     1994, under Action Transmittal ACF-AT-94-5 in which our
     practice of mandating the transfer of systems was changed to
     require its *... consideration as an option in.the
     alternatives analysis...,* We will:continue to review our
     policy towards systems transfer, as with all policies
     regarding systems development, to ensure that we provide the
     clearest guidance and most cost-effective and efficient
     solutions to States in the area of data systems development,
     implementation and operation.
OfG Recommendation 2:  Develop strategies to identify areas where
States can provide technical assistance tb others. AC!?should
also coordinate this efforC both regionally and.nationally.
     ACF Response:  We agree with the OIG's recommendation in
     this area, and have begun seeking opportunities to build the
     types of supportive relationships between States systems
Paw   3
      development and operations staffs that are envisioned by
      this recommendation. We are seeking opportunities through
      scme   of the many   conferences   we sponsor   each   year   to allow
      for enhanced technical. assistance between States. The ACF
      Users Group Conference, held twice a year, is another
      example of how we are striving to bring States' staffs
      together on issues of mutual interest. over the last two
      years, we have held many regionally-based CSENet Technical
      Aseistance Workshops under the direct sponsorship of a
      particular State. These workshops.,in many ways, directly
      address the OIG's suggestions of having States become
      valuable resources ta one another. ACF will cont=inueto
      seek more opportunities to bring the States together,
      regionally and nationally, as technical assistance resources
      and partners.
